             REDACTED VERSION

                       United States Department of Justice
                            Office of the Inspector General
                                              Audit Division




Audit Report



  Immigration and
Naturalization Service
  Collection of Fees
 at Air Ports of Entry




September 2002

       02-42
                        i

                REDACTED VERSION
                           REDACTED VERSION

   IMMIGRATION AND NATURALIZATION SERVICE
    COLLECTION OF FEES AT AIR PORTS OF ENTRY

                        EXECUTIVE SUMMARY


      The Immigration and Naturalization Service collects user fees for
processing various types of applications and petitions for immigration
benefits. The fees, usually in the form of cash, are deposited into the
Immigration Examinations Fee Account.

       The Office of the Inspector General (OIG) previously identified
weaknesses in the INS’s fee collections in an audit issued in February 2000,
Report Number 00-05, Immigration and Naturalization Service Collection of
Fees at Land Border Ports of Entry. After our audit, the INS revised its
procedures in July 2000 to strengthen controls at air, land, and sea ports of
entry (POEs). Although these revisions addressed both the cash register and
the manual receipts fee collection procedures, the primary focus of the
revisions was on cash register procedures. However, few air POEs use cash
registers. Most use the manual receipt system or some version of the Forms
Integration Management System, an automated system designed to provide
an efficient method to collect and arrange port-specific administrative data
into a usable format.

       In this audit, we reviewed the fee collections process at air ports of
entry to determine if the INS’s new procedures and controls over the process
were adequate to ensure that the fees collected were properly accounted for
and deposited timely. We also reviewed selected fee collection workload
statistics to determine if the fees collected reconciled with the deposits
made.

     Our audit work included observing the process and reviewing
accounting records at a sample of eight air POEs and the INS’s Debt
Management Center. The eight air POEs had deposits totaling approximately
$2.5 million during the period of October 1, 2000, through June 30, 2001.

       Fees collected at air POEs are usually in the form of cash and are
highly vulnerable to loss or theft. We concluded that with the manual
receipt procedures currently in place, air POEs do not have adequate
controls to reduce the inherent risks of error and misappropriation. Further,
until each POE makes its own deposits and reports deposits separately to the
Debt Management Center, INS managers cannot determine the total amount
                                      i

                           REDACTED VERSION
                              REDACTED VERSION

of fees collected or validate the accuracy of some of their monthly workload
statistics.

      We concluded that the INS has no assurance that material losses have
not occurred because:

      •      The cash collected and supporting accounting records were not
             adequately safeguarded and preserved.

      •      Management oversight throughout the collection and deposit
             process was inadequate.

      •      Segregation of duties was not adequate.

      •      There were no thorough reconciliations of the cash collected, the
             individual receipts, and the applications adjudicated.

      Our audit also found that neither we nor INS managers are assured of
the accuracy or completeness of either the financial data in the Financial
Accounting and Control System or the statistical data in the Performance
Analysis System. We also concluded that there is substantial opportunity for
funds to be lost or stolen with little or no chance of detection.

      We make several recommendations in this report to improve the
safeguards over the collection of fees at air POEs including that the INS:

      •      Revise the manual receipt and deposit processes.

      •      Design a manual receipt system to ensure strict accountability of
             the receipts (G-711).

      •      Discontinue the use of the Forms Integration Management
             System.

      •      Develop and issue a standard form or checklist for Trade NAFTA
             adjudications.1

      •      Provide additional training to POE staff.
      •      Develop sufficient criteria and comparative reports for the
             periodic review and reconciliation of fee collection data.

      1
        Under the North American Free Trade Agreement (NAFTA), certain aliens are
admitted into the U.S. for employment in specialized professions.

                                           ii

                              REDACTED VERSION
                           REDACTED VERSION


      •     Assign a unique code for each POE district office and suboffice
            and use the same code in both the accounting system and the
            workload statistics system at each location.

      We also recommend that managers at the POEs strengthen controls in
fee collections by ensuring adequate segregation of duties, maintaining close
supervision over the entire process, restricting access to the cash collected
and the associated accounting records, and performing adequate
reconciliations of the cash, receipts, and applications processed. For the
most part, the INS concurred with our recommendations and proposed
corrective action to take place over the next year. However, INS’s
responses to our recommendations on discontinuing the use of FIMS,
developing sufficient criteria and comparative reports for periodic review and
reconciliation between the accounting system and the Performance Analysis
System, and modifying the Inspection Summary Report (G.22); did not
propose sufficient corrective action or a timetable for implementation.
Therefore, this report is currently unresolved.

       The audit results and our recommendations are discussed in greater
detail in the Findings and Recommendations section of this report. Our audit
objectives, scope, and methodology appear in Appendix I. A list of forms
used during the fee collection and deposit process and a brief description of
each is in Appendix II.




                                      iii

                           REDACTED VERSION
                                  REDACTED VERSION


                             TABLE OF CONTENTS

                                                                                              Page

INTRODUCTION .................................................................................. 1
FINDINGS AND RECOMMENDATIONS ..................................................... 4
       1.     WEAKNESSES IN THE FEE COLLECTION AND DEPOSIT
              PROCESSES ....................................................................... 4
              Responsibilities and Duties................................................... 6
              Overview of the Manual Receipt System................................. 7
              OIG Observations ............................................................... 9
              Forms Integration Management System ............................... 10
              Facilities and Supplies ....................................................... 11
              Retention of Applications ................................................... 12
              Overview of the Deposit Process ......................................... 14
              OIG Observations ............................................................. 15
              Recommendations ............................................................ 17
       2.     ACCURACY OF FEE COLLECTION DATA................................. 19
              Fee Collection Data in the Financial Accounting and Control
              System ........................................................................... 19
              Fee Collection Statistics in the Performance Analysis System .. 20
              Accuracy of Deposit and Statistical Data .............................. 20
              Support of the Debt Management Center ............................. 25
              Recommendations ............................................................ 26
OTHER MATTERS............................................................................... 27
         Multiple Versions of Standardized INS Forms ........................ 27
         The INS’s Proposed Purchase of Cash Registers .................... 27
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 29
APPENDIX I -        OBJECTIVES, SCOPE, AND METHODOLOGY .................... 31
APPENDIX II -       FORMS...................................................................... 32
APPENDIX III - INS COMMENTS ON THE AUDIT RECOMMENDATIONS ...... 33
APPENDIX IV - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
              CLOSE REPORT .......................................................... 41




                                  REDACTED VERSION
                                REDACTED VERSION


                                INTRODUCTION

      The 1989 Department of Justice Appropriation Act, Public Law
100-459, established the Immigration Examinations Fee Account. This
account contains revenues from the fees the INS collects for processing
various types of applications and petitions for immigration benefits.

       Audit reports issued by the General Accounting Office and the Office of
the Inspector General (OIG) as early as fiscal year 1991 found weaknesses
in the INS’s fee collections. In February 2000, the OIG issued INS Collection
of Fees at Land Border Ports of Entry, Report Number 00-05, which
identified serious control weaknesses in the collection of fees at land border
POEs. In response, in July 2000 the INS issued new fee collection
procedures applicable to all POEs (air, land, and sea).

       During a visit to the INS’s Debt Management Center2 in Williston,
Vermont, we learned that many air POEs used manual (handwritten) receipts
for fee collections rather than the cash registers we found at the land border
POEs.

      Our objectives for this audit were to determine whether the controls in
place over the fee collection process were adequate at air POEs to ensure
that:

       •      the fees collected were properly accounted for and deposited
              timely, and

       •      selected statistics related to fee collections could be reconciled
              with deposits made.

       During our audit, we requested that the INS provide a universe of
airports and related fee collections. However, INS management provided a
listing of only 14 airports collecting fees. Because much of the airport fee data
was commingled with the district offices’ fee collections, there was no way to
extrapolate any data that would generate an accurate estimate or the total
amount collected. Therefore, from listings of international airports maintained
by the Federal Aviation Administration, the U.S. Customs Service, and the INS,
we identified at least 185 air POEs where the INS might collect fees.

       2
          INS field offices normally submit deposit information to the Debt Management
Center. Some suboffices and POEs route their deposits through a larger field office or a
district office.

                                             1

                                REDACTED VERSION
                                REDACTED VERSION



      From that list of 185 airports, we judgmentally selected the following
eight major airports to review: John F. Kennedy International (JFK), New
York, New York; Hartsfield International, Atlanta, Georgia; Miami
International, Miami, Florida; O’Hare International, Chicago, Illinois; Detroit
Metropolitan, Detroit, Michigan; Los Angeles International, Los Angeles,
California; San Francisco International, San Francisco, California; and
Pearson International, Toronto, Canada.3 Fieldwork was conducted during
July and August 2001.

     Air POEs collect fees, usually in the form of cash, primarily for processing
Form I-193, Application for Waiver of Passport and/or Visa.4 The fee for one
person is $170. Other applications that were processed at the air POEs in our
sample were:

       •      Trade NAFTA applications. Certain aliens are admitted into the
              U.S. for employment in specialized professions. The fee is $50.

       •      FD-258, Applicant Fingerprint Card. A card used to obtain an
              alien’s fingerprints. The fee is $25.

       •      Form I-68, Application for Canadian Border Boat Landing Permit.
              The fee is $16 for an individual permit and $32 for a family permit.

       •      Form I-90, Application to Replace Alien Registration Card. Aliens
              that lose their Permanent Resident Card may obtain a replacement
              card using the Form I-90. The fee is $110.

       •      Form I-129, Petition for a Nonimmigrant Worker. A petition filed
              by a petitioner to hire an alien as a temporary worker. The fee
              is $110.

       •      Form I-131, Application for a Travel Document. An application for
              a re-entry permit, refugee travel document, or advance parole
              document. In Miami, the form was used to allow entry of
              inadmissible aliens into the U.S. for emergency medical treatment.
              The fee is $95.
       3
         The INS conducts preclearance operations at Pearson International Airport in
Toronto, Canada. Preclearance is the full inspection at foreign ports of U.S.-bound travelers
and their luggage for immigration, customs, public health, and agriculture purposes.
       4
         Aliens arriving in the United States with an expired visa, passport, or Permanent
Resident Card or without a Permanent Resident Card or valid reentry permit may obtain
entry into the U.S. by applying for a waiver and showing good cause.
                                              2

                                REDACTED VERSION
                                  REDACTED VERSION



     •     Form I-192, Application for Advance Permission to Enter as a
           Nonimmigrant. The fee is $170.

     •     Form I-765, Application for Employment Authorization. An
           application for employment used by applicants awaiting approval of
           their claim for asylum. The fee is $100.

      The eight air POEs we reviewed deposited approximately $2.5 million into
the Examinations Fee Account during the period of October 1, 2000, through
June 30, 2001, as shown in the table below.

                                   Deposits by POE

                                               Deposits October 1, 2000
                     Airport                    Through June 30, 2001
                      Atlanta                               $96,250
                     Chicago                                 88,084
                      Detroit                                44,335
                       JFK                                  229,750
                    Los Angeles                             328,930
                      Miami                                 731,962
                   San Francisco                            103,575
                     Toronto                                833,750
                       Total                          $2,456,636
             Source: Deposit data maintained by the POEs.




                                              3

                                  REDACTED VERSION
                                REDACTED VERSION


             FINDINGS AND RECOMMENDATIONS

       1.     WEAKNESSES IN THE FEE COLLECTION AND
              DEPOSIT PROCESSES

              At the eight air POEs we tested, management did not
              ensure fee collections were adequately safeguarded.
              Inadequate supervision of the fee collection and deposit
              processes, inadequate segregation of key duties, and
              inadequate reconciliations between the applications
              processed and the fees collected created an environment
              highly vulnerable to loss or theft. Furthermore,
              management did not ensure that only one person had
              exclusive access to the fees collected. Combined, these
              conditions made it virtually impossible for managers to
              identify any losses or shortages or to determine personal
              liability by the cashier in the event that a loss was
              discovered.

      Sufficient criteria exist to guide federal agencies concerning the proper
accountability of resources, such as cash. The Comptroller General’s
Standards for Internal Controls in the Federal Government (CG Standards),
issued in 1999, contain the internal control standards to be followed by
federal agencies in establishing and maintaining systems of internal control.
In addition, the Office of Management and Budget Circular A-123,
Management Accountability and Control (OMB Circular A-123), provides
guidelines for improving accountability and establishing management
control. Based on the requirements of these criteria, we identified four
major controls (described in the following four paragraphs) that should be in
place for the fee collection and deposit processes.

      Supervision of the Processes. According to the CG Standards,
managers must continuously review and approve the work of their staff.
OMB Circular A-123 requires managers to exercise appropriate oversight to
ensure that individuals do not exceed or abuse their assigned authorities.
The INS Fee Collection Procedures manual5 (the Manual) outlines
supervisors’ responsibilities for the oversight of the fee collection and deposit
processes.
       5
       Guidance titled Fee Collection Procedures at Ports of Entry was issued by the INS
Headquarters in July 2000. These guidelines are the basic fee collection criteria used at
POEs.

                                             4

                                REDACTED VERSION
                            REDACTED VERSION



       Segregation of Duties. OMB Circular A-123 requires that key cash
handling duties and responsibilities for authorizing, processing, and
recording transactions be separated among individuals. The Manual states
that if adjudicating applications, the INS employee must not accept fee
payments or perform cashier duties, except when only one INS employee is
assigned to a POE.

      Reconciliations. The CG Standards recommend that periodic
reconciliations be made between resources and records and that the
frequency of such comparisons be determined by the vulnerability of the
asset, with cash being one of the most vulnerable assets. The Manual
requires that at the end of each shift, in the presence of a supervisor or a
person designated by the supervisor, the cashier must perform a prompt
and thorough reconciliation of the fees collected. The Manual specifically
states that the following items must be reconciled:

      •     The fee collected

      •     Individual manual receipts (Form G-211 or Form G-711)

      •     The totals from the end-of-shift Daily Register of Receipts
            (Form G-253)

      •     Applications processed

     Furthermore, the Manual directs that the reconciliation must be
documented on a locally generated worksheet and have the concurrence of a
second person. If a shortage is discovered, the cashier must assume
personal liability for the loss and submit a memorandum to the port director
acknowledging the discrepancy and explaining the circumstances.

       Restricted Access to Resources. The CG Standards also require
managers to restrict access to cash to authorized individuals so that the risk
of loss is reduced. According to OMB Circular A-123, accountability for the
custody of cash should be assigned and maintained. The Manual requires
that each employee who collects fees maintain a cash box, separate from
the applications processed, and safeguard keys, if issued. The Manual also
requires inspectors to keep originals or photocopies of applications in a
locked box until the end of the work shift. The Manual further states, “These
documents [applications] will form a transaction record independent from
the Cashier and will be counted to establish the proper amount of fees
collected that should be produced by the Cashier.”

                                       5

                            REDACTED VERSION
                             REDACTED VERSION




Responsibilities and Duties

       The Manual states that port directors must appoint a principal officer
whose primary responsibilities are to oversee the fee collection process, to
train and manage the staff engaged in fee collections, and to ensure the
security and accountability of funds received by INS employees. The Manual
outlines numerous duties for the principal officer.

       A single person designated as principal officer at each POE is
important, especially at POEs with several fee collection points, such as
multiple-terminal airports. Having one person to oversee the process can
improve controls and help ensure that fee collections are conducted
consistently among multiple locations. Of the eight air POEs we tested,
however, only four (Chicago, JFK, Los Angeles, and Miami) designated a
principal officer, as the Manual requires. Moreover, even the designated
principal officers at those four air POEs were not fulfilling all applicable duties
listed in the Manual.

      In addition to the guidelines already discussed, the Manual includes
the following duties and responsibilities for cashiers and supervisors to
safeguard cash during the fee collection process:

Cashier

      •     Sign in on the cashier’s log and record all instances where a
            relief cashier collects fees using the same cash box during that
            time. When a relief cashier is necessary, the cash is counted by
            both cashiers and noted on the log to ensure accountability.

      •     Restrictively endorse checks and money orders immediately,
            using a rubber stamp that includes certain endorsement
            information.

      •     Safeguard the individual receipts in use.

      •     Issue an individual receipt and log the required information on
            the Daily Register.
      •     If a receipt must be voided, immediately call the supervisor to
            initial the void. The Manual states that voided receipts must be
            submitted to the Debt Management Center.


                                        6

                             REDACTED VERSION
                            REDACTED VERSION

Supervisor

      •      Immediately review and document concurrence of cashier errors
             by initialing the Daily Register and other forms (e.g., individual
             receipts) as necessary.

      •      Conduct unannounced cash counts.

      •      Certify the accuracy of the fees collected at the end of each shift.

      •      Sign, date, and provide on the application a clear explanation for
             any fees waived.


Overview of the Manual Receipt System

      The eight air POEs we reviewed used manually prepared receipts or a
nonintegrated, stand-alone computer system to collect and record fees. As
a result, the entire fee collection process used handwritten or computer-
generated receipts and other support documents instead of cash registers.
When applicants paid a fee, they received a receipt from an immigration
inspector or supervisor who functioned as the cashier. Currently, the INS
uses two types of individual receipts: (1) the G-211, which provides an
original receipt for the applicant and one copy for the accounting records and
(2) the G-711, which provides an original receipt for the applicant and two
copies for the accounting records. The G-711 is a prenumbered form. Some
of the G-211 receipts we observed were prenumbered and some were not.
Even if prenumbered, both types of receipts were unaccountable forms.

       The next step in the process is the completion of the Daily Register.
Its purpose is to manually record and account for fees received and accepted
by the POE. Most of the information contained on the Daily Register is
duplicative of the information on the individual receipts. The Daily Register
is neither prenumbered nor accountable. A supervisor, or a person
designated by the supervisor, manually numbers the Daily Register.
According to the Manual, the Daily Register numbers should include the
office location code, the last two digits of the fiscal year, and a consecutively
assigned number.
       The Manual states that at the end of each shift employees shall
reconcile the fees collected with the entries on the Daily Register, and the
collections and supporting documents shall be deposited in a drop safe or
transferred to another employee for safekeeping. To maintain accountability


                                        7

                            REDACTED VERSION
                           REDACTED VERSION

for the fees collected, the transfer must be documented on a Receipt for
Funds and Valuables Transferred (Form G-714).

      Manual cash collection systems are especially vulnerable to
manipulation and, thus, require more supervisory involvement and
oversight. In our judgment, the current design of the INS’s manual receipt
system is cumbersome and labor-intensive. Furthermore, controls over the
process are weakened because:

     •     None of the forms used in the process are accountable.

     •     The POEs are allowed to use two types of individual receipts.

     •     The G-211 receipt, although meant to serve the same purpose
           as the G-711, does not capture all the necessary information to
           provide an adequate audit trail and does not have enough copies
           to maintain complete accounting records.

     •     An increased risk of errors occurs when information from the
           individual receipt must be re-entered on the Daily Register.

     •     An increased risk of lost or missing Daily Registers and gaps in
           their sequential numbers occurs because the forms and entries
           on the forms are numbered manually.

     •     Immigration inspectors or supervisors performed the cashier
           function along with the responsibility of adjudicating applications
           rather than being assigned as a dedicated cashier.

     •     The overlapping shifts of the inspectors performing cashier
           duties and supervisors at the air POEs make it difficult to
           perform a true end-of-shift reconciliation and appropriately
           transfer accountability for the fees collected.




                                      8

                           REDACTED VERSION
                                          REDACTED VERSION

OIG Observations

      Our audit testing focused on evaluating the air POEs’ compliance with
the guidelines for safeguarding fees. We observed the process and reviewed
accounting records at the eight air POEs in our sample. The following table
shows a comparison by POE of the discrepancies we found. An “X” indicates
an observed weakness.

              Weaknesses in Receipt Procedures Used by the POEs




                                                                                                     Francisco
                                                                                   Angeles
                                                     Chicago




                                                                                                                 Toronto
                                           Atlanta




                                                                   Detroit




                                                                                             Miami



                                                                                                        San
                                                                             JFK



                                                                                     Los
            Weaknesses



Inadequate supervision of fee
                                            X         X             X        X       X        X         X         X
collections.
Applications processed not adequately
                                            X         X             X        X       X        X         X         X
secured.
Inadequate segregation of duties.           X         X             X        X       X        X         X         X
Inadequate reconciliations.                 X         X             X        X       X        X         X         X
Reconciliations not adequately
                                                      X             X        X       X        X         X         X
documented.
[SENSITIVE INFORMATION DELETED]             X         X             X        X       X        X                   X
Transfer of fees not adequately
                                                                    X        X       X        X         X         X
documented.
Multiple persons with access to the
                                                      X                      X       X        X                   X
drop safe.
Did not designate a Principal Officer.      X                       X                                   X         X
Cashier’s log not being used or not
                                            X         X             X        X       X        X         X         X
used properly.
Checks, etc., not immediately
endorsed with restrictive                   X         X             X                X        X         X         X
endorsement.
Individual receipts not adequately
                                            X         X             X        X       X        X         X         X
safeguarded.
Daily Register not adequately
                                            X         X             X        X       X        X         X         X
safeguarded.
Voided receipts not sent to the Debt
                                            X                       X        X                X         X         X
Management Center.
Lack of evidence of supervisory
concurrence with cashier errors on                                  X                X        X                   X
Daily Register and other documents.
No evidence of unannounced cash
                                            X         X             X        X       X        X         X         X
counts.
Inadequate certification of accuracy of
                                            X         X             X        X       X        X         X         X
the fees collected.
Lack of evidence of supervisory
                                            X                      UTD       X     UTD        X      UTD          X
concurrence for fees waived.a
Source: Data based on OIG observations.
  a
    Four air POEs (Detroit, JFK, Los Angeles, and San Francisco) did not maintain copies of applications at the POE.
For those POEs, we were unable to determine (UTD) supervisory approval of fee waivers, or the results in the table
are based on POE-processed applications found at another office, such as a district office.


                                                               9

                                          REDACTED VERSION
                           REDACTED VERSION

      As demonstrated in the table, we found a large number of significant
control weaknesses at the air POEs. As a result, we believe the risk is very
high that loss or theft of fees could occur with little or no chance of being
discovered.


Forms Integration Management System

      When the Forms Integration Management System (FIMS) was
designed by the INS Buffalo District Office in the early 1990s, the goal was
to provide an efficient method for the POEs to collect and arrange
administrative and enforcement data into a usable format. The FIMS system
is a nonintegrated, stand-alone computer system that has a number of
optional features. The data stored is port-specific; that is, the system stores
data specific to each POE, but the information is not shared among POEs or
other INS systems.

      During our review of our eight sample ports, we found that Atlanta and
Toronto routinely used the Forms Integration Management System to print
applications and generate the G-211 receipts and the Daily Register. The
Toronto POE is by far the most extensive user of the FIMS. In Los Angeles
and San Francisco, some inspectors occasionally used the FIMS just to print
applications and generate a G-211 receipt. Chicago and Detroit only used
the FIMS to print readable versions of the applications but did not use the
system for receipt generation or as a log of receipts issued. Miami and New
York did not have a copy of the FIMS at their POEs. We also found different
versions of the FIMS in use at the air POEs that used the system.

      At Chicago, one INS official told us that the Buffalo District no longer
provides adequate technical support for the Forms Integration Management
System. Another official at INS Headquarters told us that the FIMS was not
approved for use with INS fee collections. Furthermore, a request from the
Assistant Attorney General for Administration, dated September 8, 1999,
directed all DOJ components to submit to the Department’s Information
Management and Security Staff a plan for certification of each information
technology system in use. As of January 2002, the FIMS was not on the
INS’s accredited and certified information systems list, nor was the system
recognized in the Manual.

      We found that the FIMS can be easily compromised.

                     SENSITIVE INFORMATION DELETED


                                      10

                           REDACTED VERSION
                           REDACTED VERSION



When combined with inadequate separation of duties where an inspector
adjudicates the application, collects the fee, and generates a G-211 receipt,
there is a high risk of thefts of fees occurring without detection. Inadequate
end-of-shift reconciliations further increases the risk. Therefore, in our
judgment, the POEs should not use this system for fee collections.


Facilities and Supplies

       During our testing, we observed situations where controls on INS fee
collecting at air POEs were weakened by facilities constraints. For example,

                   SENSITIVE INFORMATION DELETED


In our judgment, port directors and principal officers should be cognizant of
such risks and take steps to minimize these weaknesses at their POEs, as
delineated in the Manual.

     Our observations also raised concerns with regard to rubber stamps
used during the fee collection process, specifically the restrictive
endorsement stamp for checks and the “fee paid” stamp.

       Restrictive Endorsement Stamp. Placing a restrictive endorsement
on a check or money order immediately upon receipt is crucial to reducing
the risk of misappropriation. The Manual states that every POE should have
a rubber stamp for endorsing checks. During our observations, however,
we found that the POEs either did not have the required stamp or the stamp
was available only to the deposit preparer and not the cashiers.

        As shown in our preceding table, we credit only one of the eight POEs
in our sample, JFK, with immediately endorsing checks upon receipt.
Although we did not observe any checks received for fees during our site
visit, the Deputy Area Port Director at JFK told us that they endorse checks
by hand upon receipt because they did not have an endorsement stamp at
the airport.

     Atlanta, Los Angeles, Miami, and San Francisco did not have
endorsement stamps nor make endorsements upon receipt of checks. In
Los Angeles, the endorsement was typed on the check when the deposit was
prepared. In Atlanta, Miami, and San Francisco, checks were not endorsed


                                      11

                           REDACTED VERSION
                           REDACTED VERSION

until they reached the district offices and then were endorsed as part of the
deposit process.

       Fee Paid Stamp. Some of the air POEs we reviewed used a fee paid
stamp to show fee payment information on the application. Much of the
information on the rubber stamp was duplicative of the information on the
individual receipt, such as receipt number, amount paid, and the name or
inspector number of the cashier. Further, where used, we observed that the
fee paid stamps were not specifically assigned to those performing cashier
duties and the stamps were not secured when not in use. Furthermore, the
Manual does not address the use of fee paid stamps in conjunction with the
manual receipt process.

      We agree that POEs using the manual receipt system need some
method to annotate the application with fee payment information. However,
a rubber fee paid stamp is easily compromised. If air POEs had operated
with a cash register system, the applications would be validated by the INS
cash register to reflect payment information rather than using a rubber
stamp.

      In our judgment, if rubber stamps are to be used in the fee collection
process, the use and control of fee paid stamps should be similar to access
to a cash register. That is, managers must maintain segregation of duties,
and fee paid stamps must be secured when not in use so that cashiers can
be held accountable in the event of a loss or shortage. And, at the same
time, managers must ensure an adequate audit trail exists.

      We believe it is incumbent on the port directors and principal officers
to ensure cashiers have the necessary supplies readily available to
adequately perform their cashier duties. Further, those officials should
ensure that all rubber stamps used during the manual receipt process are
appropriately secured to prevent abuse or unauthorized use.


Retention of Applications

      To ensure that all fees collected are accounted for and deposited, a
system of management controls must be in place that identifies when and
where a collection has occurred and what type of application was processed.
Further, the records should be available for audit trail purposes to show that
a fee was collected when an applicable INS service was provided. The air
POEs in Detroit, JFK, Los Angeles, Miami, San Francisco, and Toronto did not


                                      12

                           REDACTED VERSION
                                        REDACTED VERSION

 have documentation readily available that supported the fees collected or
 the reported workload statistics because they forwarded the adjudicated
 applications to another office.

       In our judgment, INS’s processed applications are accounting records
 and the National Archives and Records Administration requires accounting
 records to be maintained for six years, three months. Therefore, at a
 minimum, copies of the applications should be maintained at the POEs so
 that POE management can reconcile the number of applications adjudicated
 with the number and amount of fees collected and waived, thereby being
 assured that the fees deposited were the amounts actually collected.

       The following table shows a comparison by air POE of the applications
 retained and forwarded to other offices.

                              Application Retention Locations

                                                           Los                San
Application     Atlanta      Chicago     Detroit   JFK   Angeles   Miami   Francisco   Toronto
   I-193           A            A           F       F       F       A         F          A
Trade NAFTA        N            A           F       F      N        A         F          A
   I-90            A            —           F       F       F       —         —           F
   I-131           —            —           F       —       F       A         F          A
   EAD             —            —          —        —      —         F        —          —
   Other           —            A          —        —      —        —         —          A
   Source: Based on OIG observations.
   A - Filed at airport
   F - Forwarded to another office
   N - No copy kept
   — - Application not processed


        We also found that the INS does not use a standard form or
 application to document Trade NAFTA adjudications. Instead, some of the
 ports kept copies of letters from employers. At Miami, for instance, we
 observed 4 of 17 Trade NAFTAs processed during three sample months
 without a letter of request from an employer. At Atlanta and Los Angeles,
 no documents of Trade NAFTA adjudications were kept; only the G-211
 receipt was available to support that a Trade NAFTA was processed. From
 the results, we believe the INS should develop a standard form, such as the
 local form developed by staff at the San Francisco air POE, to document all
 Trade NAFTA fee collections.




                                                   13

                                        REDACTED VERSION
                                REDACTED VERSION

Overview of the Deposit Process

       Safeguarding fee collections during the deposit process requires strong
management controls because the cash must be properly accounted for as it
is transferred from one individual to another. According to the Manual, the
following two principles apply at every stage of the fee collection process:

       •      Fee collections and applications are never to be counted alone,
              with the exception of situations at POEs where there is only one
              INS staff member on duty.

       •      At every point at which fee collections are transferred from the
              custody of one individual to another, the transfer is to be
              recorded on a Receipt for Funds and Valuables Transferred
              (G-714).

      The Manual also specifies procedures and responsibilities for the
principal officer and supervisors that are applicable to the deposit process.
The principal officer must ensure that neither the money nor the applications
processed are counted by one person alone. Supervisors’ responsibilities
include certification of the completeness and accuracy of the deposit amount
and deposit documentation.

       In addition to the guidelines and responsibilities stated above, the
Manual includes other procedures to safeguard cash during the verification,
final preparation, and delivery of deposits. Key procedures include:

       •      Remittances are to be counted and verified against supporting
              documents by two employees, one of whom is the employee who
              prepared the deposit.

       •      Two signatures on the Summary of Fees (G-712) are required to
              certify that the amount for deposit agrees with the amounts
              reconciled at the end of each shift.

       •      When the deposit is delivered by messenger or by mail, it is to
              be sealed in an appropriately labeled envelope. This envelope is
              then placed in another sealed envelope and addressed
              appropriately.6


       6
        The Fee Collection Procedures manual provides specific instructions for the
preparation of these envelopes.

                                            14

                                REDACTED VERSION
                          REDACTED VERSION

     •     When delivered by an INS employee to a district office, another
           port, or a bank, the deposit must be secured in an appropriate
           manner, such as a locked bank bag.

     •     The person making the delivery must be escorted if the deposit
           is more than $300 in cash or negotiable securities.

     •     A record of the shipment of deposits is to be maintained on the
           Schedule of Valuables Shipped (G-221).

       In accordance with Department of Treasury regulations, the Manual
requires that receipts totaling $5,000 or more be deposited on the same
day. The Manual allows collections totaling less than $5,000 to be
accumulated and deposited when the total reaches $5,000. However,
deposits must be made by Thursday of each week, regardless of the amount
accumulated, except in extremely remote locations with little collection
activity. None of the air POEs we reviewed was considered a remote
location.


OIG Observations

      Our audit testing focused on evaluating the POEs’ compliance with the
above procedures and requirements. We observed the deposit process and
reviewed the accounting records at each of the eight air POEs in our sample.
The following table shows a comparison by POE of the discrepancies we found
in the deposit process. An “X” in the table indicates an observed weakness.




                                    15

                          REDACTED VERSION
                                              REDACTED VERSION

                  Weaknesses in Deposit Procedures Used by POEs




                                                                                                Francisco
                                                                            Angeles
                                                 Chicago




                                                                                                            Toronto
                                    Atlanta




                                                            Detroit




                                                                                       Miami



                                                                                                   San
                                                                      JFK



                                                                              Los
         Weaknesses



Cash prepared for deposit was
not counted and verified by                       X          X        X                 X          X
two persons.
Two persons did not verify
                                                  X          X        X       X         X          X
cash with support documents.
Form G-712 was not prepared
and the amounts certified by         X            X          X        X                            X         X
two persons.a
Cash was not properly
transferred between persons          X                       X        X       X                    X         X
using the Form G-714.
[SENSITIVE INFORMATION
DELETED]
                                     X            X                                     X          X         X


[SENSITIVE INFORMATION
DELETED]                                          X                           X

Cash was not deposited in a
                                     X                       X        X       X                    X         X
timely manner.
POE did not maintain a
                                   N/A          N/A                                   N/A        N/A         X
Form G-221.b
  Source: Data based on OIG observations.
  a
    The July 2000 version of the Manual requires that Form G-712 be completed for deposits. However, in
December 2001, officials at the Debt Management Center told us they did not require the form for deposits pending
a revision of the process.
  b
    Only POEs that prepared and packaged their own deposits and used the Deposit Ticket (SF-215) would have
the Form G-221 as part of their accounting records.


      We found that the deposit procedures used were not consistent among
the eight air POEs. At the time of our fieldwork, Atlanta,7 Chicago, Miami,
and San Francisco did not prepare their own deposits. Instead, they
transferred the fees collected to their respective district office, and the air
POEs’ cash and checks were commingled with district office monies in
preparation for the district office’s deposit. JFK, Los Angeles, and Toronto
prepared their deposits and made their deposits at a bank. Detroit prepared
the deposit, but then transferred the fees and deposit documents in a sealed
bank bag to a major land POE. The frequency with which the POEs prepared
and made deposits also varied, ranging from every few days to once a
month, regardless of the amount collected.




        7
         Soon after our fieldwork in August 2001, the Atlanta POE began preparing its own
deposit and delivering it directly to a bank.
                                                           16

                                              REDACTED VERSION
                           REDACTED VERSION

      The weaknesses we identified are evidence that INS management did
not have adequate controls in place to safeguard fees during the deposit
process. INS staff were permitted unmonitored access to the cash and
accounting records, staff did not adequately maintain accountability when
fees were transferred between individuals, and supervisors did not always
ensure the accuracy of the fees being deposited.

       In our judgment, each air POE should prepare its own deposits using a
unique POE identifier on the Deposit Ticket (SF-215). This procedure
strengthens controls, improves accountability at the ports, and increases the
accuracy of workload statistical reporting. The fees and applicable
supporting documentation should be sealed in a bag at the POE, ready for
delivery to the bank, before being transferred to an onward office, such as a
district office.

      Officials at the Debt Management Center told us in January 2002 that
they eliminated the requirement to complete the Summary of Fees (G-712)
in favor of using the more detailed Daily Register (G-253). We believe that
completion of the G-712 form would strengthen controls because air POEs
would have to account for all individual receipts and thus improve the
Center’s oversight of the fee collection process at air POEs.


Recommendations

We recommend that the INS:

     1.    Revise the manual receipt and deposit process and,
           subsequently, the Fee Collection Procedures manual. At a
           minimum, the revisions should include the following:

           a.    Destroy all unused 2-part G-211 receipts and require that
                 POEs use only the 3-part, prenumbered G-711s as the
                 individual receipt.

           b.    Eliminate use of the Daily Register of Receipts (G-253).

           c.    Require that air POEs use the Summary of Fees (G-712) to
                 verify and certify the accuracy of the fees collected.

           d.    Require that each air POE prepare its own deposit,
                 including the Deposit Ticket (SF-215), and secure the


                                     17

                           REDACTED VERSION
                    REDACTED VERSION

           deposit in a sealed bank bag for delivery to a bank or to
           transfer to another INS office.

     e.    Require that each air POE directly submit copies of
           individual receipts (G-711), the Summary of Fees (G-712),
           and the Deposit Ticket (SF-215) to the Debt Management
           Center.

     f.    Establish guidance and controls for use of fee paid stamps
           in lieu of cash register validations.

     g.    Develop guidance and controls to ensure a thorough
           end-of-shift or end-of-day reconciliation of fees collected
           and the applications processed.

     h.    Require that INS applications be adequately annotated
           with fee paid or fee waived information.

     i.    Require that applications and fee collection and deposit
           documentation be retained as the source documents for
           the accounting records for the necessary retention period
           (currently six years, three months).

2.   Design a manual receipt process for issuing G-711 receipts. The
     system should designate a control point for issuing G-711s to
     field offices, require use of manual receipts, and require that all
     manual receipts be accounted for and issued in strict sequential
     order.

3.   Discontinue use of the Forms Integration Management System
     for fee collections at air POEs and other ports of entry.

4.   Develop and issue a standard form or checklist for the Trade
     NAFTA adjudications.

5.   Provide training to POE staff who will use the manual receipt
     process to ensure that the new procedures are sufficiently
     implemented, and require that each port director certify
     implementation of the new procedures.




                               18

                    REDACTED VERSION
                           REDACTED VERSION


     2.    ACCURACY OF FEE COLLECTION DATA

           We found that fee collection data in the INS’s Financial
           Accounting and Control System and the Performance
           Analysis System did not agree for any of the eight air POEs
           in our sample. Furthermore, the data from both systems
           seldom agreed with the source documents, such as the
           applications processed. The lack of unique location codes
           in each system made it virtually impossible to reconcile the
           fee collection data found in the two systems. As a result,
           INS managers have no assurance of the accuracy or
           completeness of financial data and statistical data related
           to fee collections.

      The Government Performance and Results Act of 1993 requires federal
agencies to set goals, develop strategic plans, and measure the results of
program performance based on whether the goals have been achieved. To
determine how well the INS was meeting its goals, our audit included testing
to see how the fee collection data reported in the INS’s Financial Accounting
and Control System compared with correlating fee-related statistics reported
in the INS’s Performance Analysis System.


Fee Collection Data in the Financial Accounting and Control System

      Field offices must submit fee collection data and supporting
documentation to the Debt Management Center (the Center) on a regular
basis. In turn, personnel at the Center enter the fee information into the
INS’s Financial Accounting and Control System.

       At the start of our audit, we requested fee collection data for the
period October 1, 2000, through March 31, 2001, for all air POEs where fees
were collected. The Center provided a list of only 14 locations with deposits
totaling approximately $1.6 million for that 6-month period.

      Analyzing the results, we found that the Center could not identify the
amount of fees collected for every airport where the INS performs
inspections and collects fees. In addition, the fee collection data that was
available from the Financial Accounting and Control System was commingled
between multiple locations in some instances. In our judgment, this
occurred because not all air POEs had a unique location code in the system.
For example, deposits for O’Hare International Airport in Chicago are
combined with deposits from the INS District Office in Chicago using the

                                     19

                           REDACTED VERSION
                            REDACTED VERSION

same deposit code (CHI) in the Financial Accounting and Control System.
Likewise, deposits for the Miami International Airport are combined with
deposits from the Miami District Office using the same code (MIA).


Fee Collection Statistics in the Performance Analysis System

     The Performance Analysis System is the INS’s Service-wide system to
summarize and report workload statistics. Beginning in October 2000, the
Inspections Summary Report generated from the Performance Analysis
System included workload statistics for the various INS applications
processed.

       Our fieldwork confirmed that the POEs we tested were manually
inputting statistics into the Performance Analysis System on a monthly basis.
However, the methods for tracking and compiling application and fee data
differed among the eight air POEs we reviewed.

       As with the Financial Accounting and Control System, not all air POEs
had a unique location code in the Performance Analysis System. In that
system, source statistics for an air POE can be distinguished from district
office statistics by coding the Inspection Summary Report for port type “A”
(for air). However, the Performance Analysis System could not provide
statistics for individual air POEs if there was more than one airport reporting
under the same location code.


Accuracy of Deposit and Statistical Data

       To test the accuracy of the financial and statistical data related to fee
collections, we obtained financial data from the records maintained at the air
POEs because the Center could not provide the information. For
comparative purposes, we requested and obtained from INS Headquarters
the monthly Inspection Summary Reports for the eight air POEs in our
sample for the period October 2000 through June 2001. In the Inspection
Summary Report, workload data is reported in the form of the number of
applications processed, by type of application. When multiplying the number
of applications processed by the amount of the fee, a comparison can be
made with the fee amounts deposited.

      Next, we attempted to perform two separate reconciliations. First, we
compared the fees deposited to the workload statistics reported in the
Performance Analysis System, by month, for the period October 2000

                                      20

                            REDACTED VERSION
                           REDACTED VERSION

through June 2001. Second, we selected one month from each of the three
quarters and tried to compare both the financial and statistical data to the
individual source documents, i.e., the applications.

      Only six of the nine types of applications we encountered at the eight
air POEs in our sample were reported on the Inspection Summary Report.
Therefore, our comparison of statistical and financial data was limited to the
following applications:

      •     I-193, Application for Waiver of Passport and/or Visa

      •     TNs, Trade NAFTA applications

      •     I-90, Application to Replace Alien Registration Card

      •     I-68, Application for Canadian Border Boat Landing Permit
            (found in Chicago and Toronto only)

      •     I-765, Application for Employment Authorization (found in Miami
            only)

      •     I-129, Petition for a Nonimmigrant Worker (found in Toronto
            only)

      The results of our testing indicate that the fee collection data in the
INS’s statistical and financial systems need improvement. The following
table reflects the results of our comparison between the financial data and
the workload statistical data for the 9-month period of October 2000 through
June 2001. The numbers shown are the number of months for the
nine months tested where the data did not agree.




                                      21

                           REDACTED VERSION
                                      REDACTED VERSION

     Number of Months (Out of Nine) Where Data Did Not Agree

         Airport           I-193          TN          I-90          I-68           I-765          I-129
          Atlanta             5            1           5            N/A             N/A            N/A
          Chicago             9            3           0              2             N/A            N/A
          Detroit             8            5           6            N/A             N/A            N/A
            JFK               9            6           7            N/A             N/A            N/A
                    a
      Los Angeles            —            —            —             —               —              —
          Miami               9            8          N/A           N/A               6            N/A
      San Francisco           9            3           2            N/A             N/A            N/A
         Toronto              2            8           3              6             N/A             7
         Source: OIG analysis of financial records maintained at the POEs and statistical data in PAS.
         N/A, not applicable, indicates that there were no forms processed at the POE.
         a
           Los Angeles did not report these statistics in PAS.


    As the table shows, overall, data for the 9-month audit period did not
agree, and we could not conclusively determine the reasons for the
differences at any of the air POEs tested. Generally, the difference per
month, by type of application, was minimal (less than 15). However, when
reviewed in the aggregate for the 9-month period, the following major
discrepancies surfaced:

     •            At JFK, the Performance Analysis System data showed 344 more
                  I-193s processed than associated fees that were deposited.

     •            At JFK, the Performance Analysis System data showed 46 fewer
                  Trade NAFTA applications processed than the deposits.

     •            At Miami, the Performance Analysis System data showed 357
                  fewer I-765s processed than the fees deposited. In the
                  Performance Analysis System, the applications where fees were
                  collected were combined with those where fees were waived.

     •            At Toronto, the Performance Analysis System data showed 294
                  more TNs processed than the fees deposited.

     •            At Toronto, the Performance Analysis System data showed 295
                  more I-129s processed than the fees deposited.

      Furthermore, we found that staff at the Los Angeles air POE did not
compile or report the statistics that we obtained for our testing from the
Performance Analysis System. INS POE officials told us that nobody from
INS Headquarters had ever questioned why they were not reporting.


                                                     22

                                      REDACTED VERSION
                                            REDACTED VERSION

          Our comparison of financial and performance systems data to the
    applications processed provided further evidence that INS managers cannot
    rely on either the financial or statistical data related to fee collections. We
    could not perform the comparison at three of the airports—Detroit
    Metropolitan, JFK, and Los Angeles International—because they did not
    maintain any processed applications at those POEs. Thus, we believe it
    would be impossible for staff at those air POEs to determine the reasons for
    any discrepancies in the event that questions arose from either the Center
    about the fees collected or the INS Statistics Branch about the applications
    processed. The volume of applications processed, the manner in which they
    were filed, and the difficulty in determining whether a fee was paid at
    Pearson International Airport in Toronto prohibited us from completing the
    comparison at that POE.

          At the remaining four air POEs in our sample—Hartsfield in Atlanta,
    O’Hare in Chicago, Miami International, and San Francisco International—we
    selected one month from each of the three quarters during the period
    October 2000 through June 2001 and compared the applications processed
    to the systems data. The following table shows the results, consolidated for
    the three months of our testing.

                        Comparison of Applications to Systems Data
                            I-193                      TN                      I-90                      I-765
     Airport         POE    PAS      FACS     POE     PAS     FACS     POE     PAS        FACS   POE      PAS    FACS
Atlanta              208     204      207       6       7        7      28      30         30    N/A      N/A    N/A
Chicago              207     214      217       4       8        5      N/A     N/A       N/A    N/A      N/A    N/A
Miami                415     394      378      17       9        17     N/A     N/A       N/A    1,802   2,141   1,802
San Franciscoa       121     108      163      24      18        27      0       0         1     N/A      N/A    N/A
    Source: OIG analysis of records maintained at the POEs and statistical data in PAS.
    N/A, not applicable, indicates that there were no forms processed at the POE.
    a
      Records were maintained at the San Francisco District Office.


           Our more detailed testing indicates that, with only a few exceptions,
    the source documents maintained at the POEs did not reconcile to either the
    statistical data or the fees deposit data. As a result, INS managers are not
    assured of the accuracy or completeness of either the financial data in the
    Financial Accounting and Control System or the statistical data in the
    Performance Analysis System. When source data does not reconcile, either
    errors were made or some transactions were not recorded, thereby
    increasing the vulnerability to loss or theft.

          The Performance Analysis System captures separate statistics for the
    Visa Waiver (I-193) applications to reflect whether the fee was collected or
    waived. Our 3-month period for comparison of financial and statistical data

                                                            23

                                            REDACTED VERSION
                                       REDACTED VERSION

to the applications processed included testing fee waivers at the four air
POEs where the applications were available. We also found waivers of the
fee for some Employment Authorization (I-765) applications at the Miami
airport. Although the Performance Analysis System does not separately
report fee waivers for that application, we also included that application in
our testing at Miami.

      Fee waivers for the Visa Waiver (I-193) applications ranged from
approximately 5 percent to 16 percent. Fee waivers for the Employment
Authorizations (I-765) applications were approximately 14 percent, based on
the applications maintained at the POE. The following table shows the
results in more detail.
                                Fee Waivers

                                         I-193                                            I-765a
                          PAS                            Applications                   Applications
Airport     Total     Waived        Percent      Total    Waived      Percent      Total Waived      Percent
Atlanta      215          11            5.1       223        15           6.7       N/A    N/A         N/A
Chicago      256          42          16.4        254        47          18.5       N/A    N/A         N/A
Miami        443          49          11.1        438        23           5.3      2,103   301        14.3
SF           127          19          15.0        126         5           4.0       N/A    N/A         N/A
   Source: OIG analysis of records maintained at the POEs and statistical data in PAS.
   N/A, not applicable, indicates that there were no forms processed at the POE.
   a
     The Performance Analysis System does not report waivers of Employment Authorizations (I-765s) separately.


      The table above shows an example of how INS managers or other
decision-makers could be misled, depending on the source of their
information. For the three months we tested, the Performance Analysis
System statistics showed that waivers of fees for the Visa Waiver (I-193)
applications at the Miami and San Francisco airports were approximately
11 percent and 15 percent, respectively. However, when the applications
are reviewed, those percentages drop to approximately 5 percent and
4 percent.

      In our judgment, waivers of fees should be closely monitored and
approved by supervisors to prevent abuse and to ensure that revenues lost
due to fees being waived are minimal. We also believe that the INS should
modify the Performance Analysis System to individually report, by
application type, the waiver data for all fee-processed applications.
Individually reporting applications processed and fee-waived applications
would provide sufficient data to allow for monthly or quarterly reconciliations
of workload statistics with the associated fees collected by each POE.

       As evidenced by our various testing previously described, the
deficiencies observed in the collection, validation, and limitations of the
Performance Analysis System data are substantial. We found that:

                                                     24

                                       REDACTED VERSION
                           REDACTED VERSION



      •     The methods for data collection at the air POEs sampled were
            not sufficient to ensure the accuracy and completeness of the
            statistics reported. Furthermore, three of the air POEs sampled
            (Detroit, JFK, and Los Angeles) did not maintain the support
            documentation necessary to reconstruct the data.

      •     Data validation at the INS Headquarters level is inadequate, as
            shown by the fact that, as of our fieldwork, the Los Angeles air
            POE had not reported any statistics related to fee collections for
            FY 2001. Yet, nobody in INS Headquarters had questioned the
            lack of reporting.

      •     The INS cannot be assured of the accuracy, completeness, or
            timeliness of the Performance Analysis System data related to
            fee collections because those data cannot be compared to data
            from other INS systems, such as the Financial Accounting and
            Control System, because waivers of fees are not separately
            reported. Further, our testing also showed that the fee
            collection data in the Financial Accounting and Control System
            are not useful for reconciliation purposes because the POEs and
            other field offices do not have unique location codes. Therefore,
            INS managers have no assurance that all fees collected are
            deposited and reported in the Financial Accounting and Control
            System.


Support of the Debt Management Center

       The Debt Management Center is responsible for (1) ensuring the
accuracy of the fee collection data entered into the Financial Accounting and
Control System and (2) providing appropriate guidance to the POEs with
regard to accurate reporting of fees collected. In our judgment, the Center
cannot totally fulfill those duties until there is some method in place to
compare the automated financial data to the data from other Service-wide
automated systems. We believe the most logical system would be the
Performance Analysis System. However, valid comparisons cannot be
accomplished until both systems have the same unique location code for
each field office, regardless of the size or type (e.g., air POE, land POE,
district office, suboffice, or service center). Further, valid comparisons
require consistent reporting in the Performance Analysis System of fees
waived for all fee-processed applications.


                                      25

                           REDACTED VERSION
                          REDACTED VERSION

       In our judgment, if the INS is to achieve its goal to maintain timely
and efficient administrative support of the Center, INS managers must first
make improvements to the Financial Accounting and Control System and the
Performance Analysis System and, thus, improve the quality of the data in
those systems. Only then can the INS claim the Center is being adequately
supported and the INS is working toward achieving Departmental goals so
that it can fulfill its oversight responsibilities.


Recommendations

We recommend that the INS:

     6.    Establish unique location codes for each port of entry, subport,
           district office, suboffice, and service center. Once established,
           the same location code should be used consistently in all of the
           INS’s Service-wide systems, such as the Financial Accounting
           and Control System and the Performance Analysis System.

     7.    Develop sufficient criteria and comparative reports for the
           periodic review and reconciliation of fee collection data in the
           Financial Accounting and Control System and the fee-related
           statistics in the Performance Analysis System to determine
           whether the INS is meeting its data integrity performance goals.

     8.    Assess and modify accordingly, the Inspection Summary Report
           (G-22) to consistently report fee collections and waivers of fees
           separately for applications requiring a fee.




                                     26

                          REDACTED VERSION
                           REDACTED VERSION


                          OTHER MATTERS

      The purpose of this section is to bring to the attention of INS
management other matters that we noted during the audit. These matters
are not part of our audit report’s Findings and Recommendations section
because, although significant, these matters were not directly related to our
audit objectives.


Multiple Versions of Standardized INS Forms

       During our audit, we found that field offices were using different
versions of standard INS forms. Specifically, at Chicago we saw two
versions of the Receipt for Funds and Valuables Transferred (G-714). We
observed the Receipt for Funds and Valuables Transferred in use at two
different points during the fee collection process at the airport. However,
when we observed the transfer of fees from the POE to the Chicago District
Office, we noted that a different version of the form was used to transfer the
cash from the messenger to the deposit preparer.

       The primary difference between the two versions is that the one used
by the Chicago District Office required only one signature—that of the
deposit preparer receiving the cash. That form did not contain a second
signature block. We noted that the messenger did sign in one of the other
columns on the form. In our judgment, the version of the form used by the
district office is not adequate to ensure accountability. While the messenger
did sign the form for fees transferred from the airport, we observed entries
with only the deposit preparer’s signature.

      Because procedures at district offices are outside the scope of this
audit, we did not pursue the matter. We believe, however, that INS
management should ensure that all field offices use the proper forms to
ensure accountability for collections and provide consistency INS-wide.


The INS’s Proposed Purchase of Cash Registers

       In January 2002, we met with officials from the INS’s Office of Field
Operations and Office of Finance to discuss the results of our audit. They
told us that the INS intends to eventually purchase cash registers for all
POEs. The official from Field Operations told us that the equipment ranged
in price from approximately $3,000 for a cash register with the minimum
                                      27

                           REDACTED VERSION
                           REDACTED VERSION

capabilities the INS wanted to approximately $3,600 for one that included
video capabilities. He said that until the events of September 11, 2001, the
purchase of 450 of these cash registers was fully funded.

      The INS intended a major purchase of cash registers as one of the
corrective actions for an OIG audit report issued March 1995, Cash
Collections at Districts and Ports in the Immigration and Naturalization
Service, Report Number 95-10. However, the purchase of that cash register
system never materialized, also due to lack of funding.

      We agree that equipment which gives INS management real-time
information would be a significant improvement and provide additional
controls over fee collections. Nonetheless, based on the work from our
recent audit at land border POEs and our work on this current audit, we do
not believe that 450 cash registers are sufficient to equip all land and air
POEs that collect fees. Therefore, the INS’s current efforts to improve
controls at the land border POEs and the corrective actions needed to tighten
controls at the air POEs using the handwritten receipt system should
continue.

      As the INS pursues the purchase of a new cash register system, we
believe it is incumbent on INS management to complete an adequate
assessment prior to its implementation so that the benefits are maximized.
A comprehensive plan is necessary to ensure that:

     •     the INS has identified all POEs (land, air, and sea) where fees
           are collected;

     •     the new equipment is placed at POEs with the highest volume of
           collections or those where management determines the
           strongest controls are needed; and

     •     the usable cash registers being replaced are relocated to POEs
           that would benefit the most.

      In our judgment, the new system will have to be phased in and will be
subject to funding and other factors that are outside the INS’s control, such
as changes in the Department’s priorities. We also believe many small, low-
volume POEs and POEs that perform remote inspections will continue to
need an adequate handwritten receipt system in place until enough
equipment is purchased to fully automate the fee collection process.



                                     28

                           REDACTED VERSION
                           REDACTED VERSION


          STATEMENT ON COMPLIANCE WITH LAWS AND
                       REGULATIONS


      As required by the Government Auditing Standards, we tested selected
transactions and records at eight air POEs to obtain reasonable assurance
about the INS’s compliance with laws and regulations that, if not complied
with, we believe could have a material effect on program operations.
Compliance with laws and regulations applicable to the fee collection
program at air POEs is the responsibility of INS management. An audit
includes examining, on a test basis, evidence about compliance with laws
and regulations.

      The specific regulations for which we conducted tests are contained in
the relevant portions of the following guidance set out by the Treasury
Department, the Comptroller General, and the Office of Management and
Budget.

      •     31 U.S.C. §321 authorizes the Secretary of the Treasury to
            prescribe regulations via the Treasury Manual to protect the
            government from fraud and loss, to take steps to discover fraud
            and attempted fraud involving receipts, and to determine ways
            to prevent and detect fraud.

      •     The Comptroller General’s Standards for Internal Control in the
            Federal Government contains the standards for establishing and
            maintaining systems of internal control for federal agencies.
            (Authorized by 31 U.S.C. §3511, “Prescribing Accounting
            Requirements and Developing Accounting Systems.”)

      •     Office of Management and Budget Circular A-123, Management
            Accountability and Control (Revised), provides guidelines for
            improving accountability and establishing management controls.
            (Authorized by 31 U.S.C. §3512, “Executive Agency Accounting
            and Other Financial Management Reports and Plans.”)

      Our tests indicate that INS management did not have the necessary
controls in place, as prescribed in the regulations, to adequately safeguard




                                      29

                           REDACTED VERSION
                           REDACTED VERSION

fee monies throughout the collection and deposit process. Our findings show
that controls at air POEs were deficient in the following areas:

      •     Managers did not exercise appropriate oversight at key points in
            the collection and deposit processes. (See Finding 1.)

      •     Adjudication and fee collection duties and responsibilities were
            not adequately segregated. (See Finding 1.)

      •     Transactions for fee collections were not adequately recorded
            and documented in order to provide timely and reliable financial
            data and other reports. (See Findings 1 and 2.)

      •     Access to resources (i.e., cash) and supporting records was not
            sufficiently restricted. (See Finding 1.)

       In addition to management’s responsibility to establish adequate
controls, 31 U.S.C. §3302 requires that “. . . an official or agent of the
United States Government having custody or possession of public money
shall keep the money safe . . . [and] shall deposit the money in the Treasury
as soon as practicable . . . .” Our tests also indicated that individuals
involved in the fee collection and deposit process, e.g., cashiers and deposit
preparers, were deficient in safeguarding and depositing fees collected as
required by this statute. (See Finding 1.)

     With respect to those transactions not tested, the level of deficiencies
noted in those that were tested cause us to believe that the INS was not in
compliance with the regulations cited above.




                                      30

                           REDACTED VERSION
                            REDACTED VERSION
                                                                   APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


      Our objectives were to determine whether the INS’s procedures and
controls over the fee collection process were adequate to ensure that:

      •     the fees collected were properly accounted for and deposited
            timely, and

      •     selected statistics related to fee collections reconciled with
            deposits made.

      We performed the audit in accordance with generally accepted
Government Auditing Standards issued by the Comptroller General of the
United States, and included tests necessary to accomplish the objectives.

       During the audit, we requested a universe of airports and related fee
collections from the INS. However, INS management could not provide
sufficient data to identify all the airports where fees were collected nor
determine the amount of the fees collected. Therefore, from listings of
international airports maintained by the Federal Aviation Administration, the
U.S. Customs Service, and the INS, we identified 185 air POEs where INS
staff might collect fees. We selected eight large international air POEs for
our testing: John F. Kennedy Airport, New York, New York; Hartsfield
Airport, Atlanta, Georgia; Miami Airport, Miami, Florida; O’Hare Airport,
Chicago, Illinois; Detroit Metropolitan Airport, Detroit, Michigan; Los Angeles
Airport, Los Angeles, California; San Francisco Airport, San Francisco,
California; and Pearson Airport, Toronto, Canada.

       The audit period was October 2000 through June 2001. We conducted
site visits during July and August 2001. In performing this audit, we arrived
unannounced and observed the fee collection and application processes at
the eight sample air POEs. We also reviewed specific documents, performed
tests of selected records and transactions, and interviewed INS officials at
the air POEs, the Debt Management Center in Williston, Vermont, and INS
Headquarters.




                                       31

                            REDACTED VERSION
                            REDACTED VERSION
                                                                 APPENDIX II

                                   FORMS


Form G-22, Inspection Summary Report – A summary of port of entry
inspection activity reported on a monthly basis.

Form G-211, Receipt for Cash – A manually completed receipt. It is a
prenumbered or unnumbered two-part form that is furnished to an alien
when an application requiring a fee is received over the counter.

Form G-221, Schedule of Valuables Shipped - A record of the shipment
of remittances to a Federal Reserve Bank or other depositary.

Form G-253, Daily Register of Fee Receipts – A form used to record, by
line entry, all fees received and receipted on Form G-211 or Form G-711
during a business day.

Form G-711, Individual Fee Register Receipt – A 3-part, prenumbered
form used to record fees received and accepted over the counter during a
business day.

Form G-712, Summary of Fees – Multi-copy form used to account for the
individual receipts issued, total amount of fees collected, and verification of
the accuracy of the deposit.

Form G-714, Receipt for Funds and Valuables Transferred – A form
used to transfer accountability for fees collected from one employee to
another.

Form SF-215, Deposit Ticket – A form used to document deposits credited
to the account of the U.S. Treasury.




                                      32

                            REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




      33

REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




      34

REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




      35

REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




       36
REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




       37
REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




       38
REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




       39
REDACTED VERSION
REDACTED VERSION
                   APPENDIX III




      40

REDACTED VERSION
                           REDACTED VERSION
                                                               APPENDIX IV

     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                     CLOSE REPORT


      A draft report was issued to the INS on July 18, 2002. INS responded
on September 17, 2002, with sufficient proposed corrective action to resolve
Recommendations 1, 2, and 4 through 6. Responses to Recommendations
3, 7, and 8 were insufficient and remain unresolved. The status of each
recommendation follows:

1.    Resolved. This recommendation was divided into nine subparts. The
      INS concurred with each of the subparts and detailed individual
      corrective action to be completed by the end of calendar year 2002.
      To close this recommendation, please provide us with sufficient
      documentation to confirm that promised corrective action was taken.

2.    Resolved. The INS indicated that they will designate a single control
      point for issuing G-711 receipts, mandate their use at all POEs, require
      that these receipts be accounted for, and require that manual receipts
      be used in strict sequential order. The INS further indicated that the
      revised procedures will be available on their Intranet via PowerPoint.
      To close this recommendation, please provide us with sufficient
      documentation to confirm that promised corrective action was taken.

3.    Unresolved. The INS agreed to discontinue the use of the DOS-
      based FIMS system for fee receipting purposes. However, while the
      INS evaluates the FIMS 2000 system used only in the Buffalo District,
      the issue of being able to alter a receipt in the FIMS 2000 database
      after the receipt was provided to the alien must be thoroughly
      analyzed for current security gaps.

                       SENSITIVE INFORMATION DELETED


      This capability and lack of an audit trail was demonstrated by the OIG
      auditor to INS supervisors. To close this recommendation, INS must
      clearly demonstrate that the FIMS 2000 system cannot be easily
      corrupted without detection, and the system must be certified by the
      Department’s Information Management and Security Staff.

4.    Resolved. The INS agreed to modify the NAFTA checklist. It is
      important to understand that the Trade NAFTAs being processed did
      not contain any hard copy form or letter of request to document the
                                     41

                           REDACTED VERSION
                          REDACTED VERSION
                                                              APPENDIX IV

     adjudication in two of the eight ports we reviewed. In three others of
     the eight ports tested, the official copy of the letter was forwarded to
     another port. Like the Forms I-193, I-90, I-129, I-131, and the I-68,
     the INS should use a form to document the adjudicated Trade NAFTAs.
     These forms should be maintained with the receipt for the fee paid for
     a period of six years and three months. To close this
     recommendation, please send us a copy of the modified checklist and
     instructions to all ports to use it or something similar for each Trade
     NAFTA adjudicated.

5.   Resolved. The INS intends to update the Inspector’s Field Manual
     and port directors will be afforded six months to implement the new
     procedures. Subsequently, the port directors will certify in writing
     they have implemented the new procedures. To close this
     recommendation, please provide documentation that the Manual has
     been updated and that the port directors have certified implementation
     of the new procedures.

6.   Resolved. The INS indicated that an analysis and timeframes will be
     established for implementation of uniform location codes. The analysis
     is expected to be completed by December 31, 2002. To close this
     recommendation, please provide us with documentation of the
     establishment and implementation of the uniform codes.

7.   Unresolved. The INS concurred with our recommendation to develop
     criteria and comparative reports for periodic review and reconciliation
     of the fee collection data in the accounting system and the
     Performance Analysis System. However, INS did not provide any
     details or a timetable on what or how this is to occur. Since the
     corrective action on this recommendation will have to be linked to
     INS’s proposed corrective action associated with Recommendations 1
     (new procedures for receipts), 6 (unique location codes), and 8
     (modified Inspection Summary Report), the INS should reevaluate
     Recommendation 7 and provide to us specific proposed actions along
     with a timetable for completion.

8.   Unresolved. The INS indicated that it revised the G.22 report in
     October 2000. However, the revised G.22 report allows for the waiver
     of fees for the I-193 only (lines 118 and 119). The G.22 does not
     record fee waivers separately for the I-68 (lines 106 and 107), I-765
     (line 120), I-131 (not on form), Trade NAFTAs (line 123), and I-90s
     (lines 125 and 126). Please reevaluate this recommendation and
     provide a more specific and accurate response.
                                    42

                          REDACTED VERSION
